Washington, D.C. 20530

October 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael Sackett, et ux v. Environmental Protection Agency, et al.,
S.Ct. No. 21-454

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 22,
2021, and placed on the docket on September 24, 2021. The government’s response is due on
October 25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 24, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

